<html>
<title> - THE EMPLOYMENT SITUATION: APRIL 2010</title>
<body><pre>[Senate Hearing 111-590]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-590
 
                  THE EMPLOYMENT SITUATION: APRIL 2010

=======================================================================

                                HEARING

                               before the

                        JOINT ECONOMIC COMMITTEE
                     CONGRESS OF THE UNITED STATES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 7, 2010

                               __________

          Printed for the use of the Joint Economic Committee



                  U.S. GOVERNMENT PRINTING OFFICE
57-314                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0463746b44677177706c6168742a676b692a">[email&#160;protected]</a>  

                        JOINT ECONOMIC COMMITTEE

    [Created pursuant to Sec. 5(a) of Public Law 304, 79th Congress]

HOUSE OF REPRESENTATIVES             SENATE
Carolyn B. Maloney, New York, Chair  Charles E. Schumer, New York, Vice 
Maurice D. Hinchey, New York             Chairman
Baron P. Hill, Indiana               Jeff Bingaman, New Mexico
Loretta Sanchez, California          Amy Klobuchar, Minnesota
Elijah E. Cummings, Maryland         Robert P. Casey, Jr., Pennsylvania
Vic Snyder, Arkansas                 Jim Webb, Virginia
Kevin Brady, Texas                   Mark R. Warner, Virginia
Ron Paul, Texas                      Sam Brownback, Kansas, Ranking 
Michael C. Burgess, M.D., Texas          Minority
John Campbell, California            Jim DeMint, South Carolina
                                     James E. Risch, Idaho
                                     Robert F. Bennett, Utah

                    Andrea Camp, Executive Director
               Jeff Schlagenhauf, Minority Staff Director


                            C O N T E N T S

                              ----------                              

                                Members

Hon. Carolyn B. Maloney, Chair, a U.S. Representative from New 
  York...........................................................     1
Hon. Kevin Brady, a U.S. Representative from Texas...............     3
Hon. Amy Klobuchar, a U.S. Senator from Minnesota................     5
Hon. Elijah E. Cummings, a U.S. Representative from Maryland.....     6

                                Witness

Statement of Dr. Keith Hall, Commissioner, Bureau of Labor 
  Statistics; Accompanied by: Mr. Philip Rones, Deputy 
  Commissioner, Bureau of Labor Statistics; and Dr. Michael 
  Horrigan, Associate Commissioner for Prices and Living 
  Conditions, Bureau of Labor Statistics.........................     8

                       Submissions for the Record

Prepared statement of Representative Carolyn B. Maloney, Chair...    24
Prepared statement of Representative Kevin Brady.................    25
Prepared statement of Representative Elijah E. Cummings..........    26
Prepared statement of Dr. Keith Hall, Commissioner, Bureau of 
  Labor Statistics, together with Press Release No. USDL-10-0589.    27
Chart titled ``Monthly Change in Nonfarm Payrolls''..............    66
Letter dated May 19, 2010 transmitting Commissioner Hall's 
  response to Senator Klobuchar..................................    67


                  THE EMPLOYMENT SITUATION: APRIL 2010

                              ----------                              


                          FRIDAY, MAY 7, 2010

             Congress of the United States,
                          Joint Economic Committee,
                                                    Washington, DC.
    The committee met, pursuant to call, at 9:30 a.m. in Room 
106 of the Dirksen Senate Office Building, The Honorable 
Carolyn B. Maloney (Chair) presiding.
    Representatives present: Maloney, Cummings, and Brady.
    Senators present: Klobuchar.
    Staff present: Andrea Camp, Gail Cohen, Colleen Healy, 
Jessica Knowles, Jim Whitney, Andrew Wilson, Lydia Mashburn, 
Jane McCullough, Ted Boll, and Robert O'Quinn.

OPENING STATEMENT OF THE HONORABLE CAROLYN B. MALONEY, CHAIR, A 
               U.S. REPRESENTATIVE FROM NEW YORK

    Chair Maloney. The Committee will come to order, and I will 
read my opening statement.
    Today's report from the Bureau of Labor Statistics provides 
fresh evidence that the labor market is strengthening and that 
we are on the path to economic recovery.
    In April we added 290,000 jobs, including 231,000 in the 
private sector. In the last two months we have added over 
520,000 jobs, with 80 percent in the private sector.
    Although the unemployment rate rose to 9.9 percent, the 
increase is due to re-entrants into the labor force, a sign of 
increased optimism about job prospects.
    We have come a great distance in the past 15 months since 
the lows of the Great Recession, but getting back the jobs lost 
in the past decade is going to take some time. By moving 
quickly and taking bold actions, the Obama Administration and 
Congress slowed the decline and restored the economy to growth 
in the second half of 2009.
    The Recovery Act, which President Obama signed into law in 
February of 2009, provided tax relief to 95 percent of American 
working families. It expanded credit to small businesses. It 
extended unemployment benefits and created jobs while investing 
in clean energy technologies, infrastructure, and education.
    Additional actions since then to create jobs and help small 
businesses include the Worker Home Ownership and Business 
Assistance Act, which expanded the first-time home-buyer tax 
credit and enhanced small business tax relief, and the HIRE 
Act, which provides tax incentives for businesses that hire 
out-of-work Americans.
    The House of Representatives passed the Summer Jobs Act of 
2010, which supports an additional 300,000 summer jobs for our 
young people.
    In addition to today's jobs numbers, we are seeing more and 
more evidence that the actions taken are working. After four 
straight quarters of negative growth, the economy has now grown 
for three straight quarters.
    Retail sales have increased for three straight months. 
Sales of both existing and new homes increased in March, with 
sales of new single-family homes rising by almost 27 percent.
    While it is encouraging to see these signs of progress and 
the return of job growth, we will need stronger growth to get 
all unemployed Americans back to work.
    As we focus on getting our national economy going, families 
all over are grappling with their family economy. Working 
mothers are key contributions to both, and in fact, on Monday, 
we will be releasing a report that looks at how working moms 
have fared during this Great Recession.
    For the overall workforce, unemployment remains at 
unacceptably high levels, with more than 15 million Americans 
out of work. Almost half of the unemployed have been out of 
work for more than six months. Almost one-third have been 
unemployed for over a year.
    African-American and Hispanic workers face unemployment 
rates of 16.5 and 12.5 percent, respectively--well above the 
overall unemployment rate of 9.9 percent.
    The JEC has begun a series of reports to better understand 
the employment challenges among different demographic groups.
    In March we released a report on long-term unemployment in 
the African-American community. Earlier this week we put out a 
report on unemployment among Hispanic workers. Later this 
spring we will be examining the challenges facing younger 
members of the labor force.
    While hiring has started to increase, that hiring is 
uneven. Just two days ago, Dr. Alan Krueger, Chief Economist at 
the Treasury Department, testified before this Committee that 
hiring among smaller companies remains weak.
    He testified that small businesses are generally the 
drivers of new jobs during recoveries, but larger 
establishments have been the ones to expand hiring during this 
recession. He testified that access to credit for small 
businesses is a large part of the problem keeping them from 
hiring.
    I know my Republican colleagues share my commitment to 
doing everything we can to help small businesses get the loans 
they need so that they can expand their operations and hire 
more people.
    We need to both identify new policies that unleash the job-
creating power of small businesses and support the sound 
proposals which have been put forward by the Obama 
Administration.
    I am particularly supportive of the $30 billion Small 
Business Lending Fund proposed by the Administration because it 
targets the small- and mid-sized community banks at the center 
of small-business lending.
    While these banks represent 20 percent of all bank assets, 
they account for more than half of all small business loans. By 
transferring funds from TARP to create this fund, we can get 
new loans out into the community, growing businesses and adding 
jobs.
    I also co-sponsored H.R. 4302, the Small Business Job 
Creation and Access to Capital Act, which would raise the cap 
on Small Business Administration 7(A) loans from $2 million to 
$5 million. Raising the cap on loans can have a powerful, 
positive impact on small businesses, and is something we should 
move through Congress as quickly as possible.
    While today's report on the April employment situation 
shows continued progress, we need to keep our eye on the most 
important thing: Creating jobs, jobs, jobs.
    I look forward to hearing additional information about the 
April employment numbers from the Bureau of Labor Statistics 
Commissioner, Dr. Keith Hall, but now I will recognize my 
colleague, Mr. Brady.
    [The prepared statement of Representative Maloney appears 
in the Submissions for the Record on page 24.]

    OPENING STATEMENT OF THE HONORABLE KEVIN BRADY, A U.S. 
                   REPRESENTATIVE FROM TEXAS

    Representative Brady. Thank you, Madam Chair. Like you, I 
am pleased once again to join in welcoming Dr. Hall before the 
Committee.
    Today's report is mixed news for American workers and their 
families. On the one hand, payroll employment increased by 
224,000 jobs after excluding the 66,000 temporary Census jobs.
    On the other hand, the unemployment rate rose to 9.9 
percent. Alarmingly, the number of long-term unemployed workers 
reached an all-time high of 6.7 million, and the long-term 
unemployed as a percent of all unemployed workers also reached 
a record high of 45.9 percent.
    A painfully slow recovery is better than no recovery, but 
for the 15.3 million Americans who are out of work and waiting 
for Washington Democrats to finally focus on jobs, this report 
is disheartening. At this slow pace, it will take much of the 
decade to return to normal employment levels.
    Consumers and businesses are increasingly concerned that 
runaway government spending and a dangerous level of debt could 
lead America down the path on which Greece has now found 
itself.
    Further hindering America's recovery are small businesses 
reluctant to hire workers while Congress is demanding new 
taxes, higher energy prices, and more expensive health care 
costs. Right now, Washington is standing firmly in the way of 
America's recovery.
    Although real GDP grew at an annual rate of 3.2 percent in 
the first quarter of this year, nearly half of this growth was 
due to one-off restocking of inventory. Real final sales, which 
are a better measure of the underlying trend in real GDP than 
the headline number, rose by only 1.6 percent in the first 
quarter of 2010.
    In line with this modest growth trend, the most recent Blue 
Chip consensus forecast of private economists predicts that 
real GDP will grow by 3.1 percent in 2010, while payroll 
employment will increase by an average of 117,000 per month 
this year.
    Unfortunately, such slow growth in payroll employment means 
that the unemployment rate will remain elevated. Indeed, the 
Blue Chip consensus forecast predicts that the unemployment 
rate will still be 9.4 percent in the first quarter--in the 
fourth quarter of this year.
    At the same point in recoveries from comparable severe 
recessions, the Reagan recovery of 1981 and 1982 was three 
times as strong in job creation and nearly twice as strong in 
real GDP growth as the current recovery.
    This is explained by vastly different economic policies. 
The economic policies of the Federal Government can either be a 
tailwind accelerating real GDP growth, or a headwind slowing it 
down.
    President Reagan pursued pro-growth policies including 
large reductions in marginal tax rates, deregulation, and open 
trade.
    Combined with the disinflationary monetary policies under 
Federal Reserve Chairmen Paul Volcker and Alan Greenspan, 
Reagan laid the foundation for two decades of prosperity.
    In contrast, President Obama and congressional Democrats 
have pursued largely anti-growth policies that have hindered 
this recovery. Businesses are delaying critical hiring, 
investment, and expansion decisions based on costly mandates, 
premium increases, and higher taxes from the implementation of 
the recently passed health care legislation and their 
uncertainty over ``cap and trade,'' ``card check,'' financial 
services reform, and other regulatory initiatives.
    Private businesses create more than four out of every five 
jobs in the United States. Instead of providing encouragement, 
President Obama and this Congress have given entrepreneurs 
reason to worry.
    Yesterday, the U.S. stock market fell by more than 3.2 
percent on wide-spread fears that the Greek debt crisis would 
spread to Ireland, Italy, Portugal, and Spain, which also have 
high levels of government deficits and debts.
    In 2009, central government budget deficits in these 
countries collectively known as the PIIGS ranged from 4.1 
percent in Italy to 16.3 percent in Greece, while gross central 
government debt ranged from 41 percent in Spain to over 125 
percent in Greece.
    After years of reckless spending, Greece was forced to seek 
a bailout from the IMF and other European countries. Now, the 
Greek Government must slash spending. The dashed expectations 
among the Greek public for government salaries, pensions, and 
other benefits have provoked strikes and riots, causing three 
deaths.
    However, there is another country whose government budget 
deficit and debt could readily reach the alarming levels found 
in Europe. Unfortunately for the American people, that country 
is the United States.
    According to our own Congressional Budget Office, the 
federal budget deficit will be over 10 percent of GDP this 
year, and the publicly held federal debt will be 63.2 percent 
at the end of fiscal year 2010. If the Democratic majority in 
Congress adopts President Obama's budget, the CBO projects that 
the federal budget deficits would exceed 4 percent in every 
fiscal year during the next decade, and publicly held federal 
debt would be 90 percent of our economy at the end of fiscal 
year 2020.
    President Obama and Congressional Democrats are pursuing 
reckless fiscal policies that are clearly unsustainable. Unless 
the excessive spending deficits and debt accumulation are 
quickly reversed, the United States may experience its own debt 
crisis. Unlike Greece, however, no one will be around to bail 
us out.
    Dr. Hall, I look forward to hearing your testimony.
    [The prepared statement of Representative Brady appears in 
the Submissions for the Record on page 25.]
    Chair Maloney. Senator Klobuchar.

   OPENING STATEMENT OF THE HONORABLE AMY KLOBUCHAR, A U.S. 
                     SENATOR FROM MINNESOTA

    Senator Klobuchar. Well thank you very much, Chairwoman 
Maloney. Thank you for holding this important hearing.
    Like Congressman Brady, I too am very concerned about the 
debt. That is why I am a strong supporter of the Bipartisan 
Debt Commission led by Erskin Bowles and former Senator, 
Republican Senator Simpson, and I am looking forward to their 
results, as well as getting to work on this debt. I think it is 
a major problem.
    At the same time, I think we have to be honest about what's 
happened here.
    When President Obama took office from President Bush, we 
were in a major financial crisis. We had unemployment, if I 
remember, we lost the same number of jobs in the first month 
when President Obama inherited this mess that is the same 
number of people as were living in Vermont.
    This month, as far as I can see here, while we have this 
9.9 percent unemployment which is clearly troubling and not 
good news, this month we have added 290,000 jobs, which is the 
largest gain since March of 2006 and the fastest growth in the 
last four years.
    Clearly this is still not good enough. I hear time and time 
again, going around my state, from people who don't have jobs. 
And even though our unemployment rate in Minnesota is 7.4 
percent, which is significantly below the national average, I 
get letters all the time that say, well, it might be 7.4 
percent but in our household it is 100 percent. You know, 
grammies who are working an extra--trying to find an extra job 
at night just to get Christmas presents for their grandkids, or 
a guy that wrote to us and said that when he and his wife put 
their three daughters to bed they just sit at the kitchen table 
and put their heads in their hands and say how are we going to 
make it tomorrow?
    These are real people experiencing these real problems. And 
that is why having a safety net in place and making sure we 
have adequate Unemployment Benefits is going to be very 
important going forward.
    So I am looking forward, Commissioner Hall, to asking you 
about how we could have this increase in jobs, this is the 
fastest rate in the last four years, but still have a rise in 
unemployment. I think I know the answer, but I am looking 
forward to delving into that with you.
    As well, talking, as we have been--Chair Maloney talked 
about these solutions, doing more with the small business 
issue. The money went to Wall Street. Most of it has come back, 
and stemmed the financial crisis, but there are still so many 
problems on Main Street. I think I said at one of our past 
hearings here, it's like Wall Street got a cold but Main Street 
got pneumonia.
    We also must get the tax cuts, the extenders, the help for 
many of our important businesses, by getting that bill done by 
the end of May. I'm hopeful that we get that thing done. And 
most importantly, what we are debating every single day, and 
last night in the Senate, is Wall Street reform.
    Because if we do not stem the tide of some of these 
problems and we do not plug some of these loopholes, we are 
going to run into the same problems. I think yesterday's 900-
point decline in the stock market was just one example. While 
it bounced back slightly, it was one example of what can happen 
with volatility in the financial markets.
    So I view that as part of the solution, as well, so we can 
really move ahead with this economy, by getting that Wall 
Street reform done.
    So I am looking forward to hearing from you, Commissioner 
Hall. I did note that you were featured in a profile recently. 
I thought you were sort of under the radar screen. Was that in 
The Washington Post?
    [Commissioner Hall nods in the affirmative.]
    Senator Klobuchar. Is that where that was? So you won't 
even say ``yes'' because he's so under the radar screen, but it 
seems like it was a very nice profile of you and all the work 
you have done and the importance of gathering these statistics. 
And so we look forward to asking you about them today.
    Thank you very much.
    Chair Maloney. Thank you very much.
    Mr. Cummings is recognized for his opening statement.

 OPENING STATEMENT OF THE HONORABLE ELIJAH E. CUMMINGS, A U.S. 
                  REPRESENTATIVE FROM MARYLAND

    Representative Cummings. Good morning, Madam Chair. Thank 
you, Madam Chair, for calling this hearing.
    I was just wondering. I saw you with that bright, nice red-
and-white tie, I guess it's your new status as a celebrity, 
huh? [Laughter.]
    But, Madam Chair, I do thank you for calling this hearing. 
The last two hearings held by this Committee have cast 
important light on some sobering truths about the labor market.
    First we know that the consequences of unemployment are 
severe both for the individual and for their children. The 
unemployed are not only vulnerable to conditions like 
depression, but are also at a higher risk for heart attacks and 
other stress-related events.
    In fact, studies by Dr. von Wachter show that the 
unemployed on the whole experience a shorter lifespan simply 
from being unemployed. Let me say that again:
    The unemployed on the whole experience a shorter lifespan.
    Pervasive unemployment is a virus and an epidemic, and it 
requires the attention we would give to any public health 
concern. What we also enunciated at recent hearings was that 
for many unemployed workers substantial retraining is now 
necessary.
    This retraining often includes a return to the classroom 
which in and of itself requires a significant financial 
commitment. We are asking workers to commit to serious change, 
and as a result we owe them a serious return on this new 
investment in education.
    Therefore, we need to learn from and build on the success 
of programs we highlighted last week in Atlanta, San Antonio, 
Boston, and Baltimore that successfully get the unemployed into 
training and back out to work.
    However, the required investments in education do not end 
with worker retraining programs in higher education. The 
elementary and secondary education infrastructure is in dire 
straits itself.
    As we know, the Recovery Act provided over $100 billion to 
state and local governments to ward off teacher layoffs. As we 
had hoped, the stimulus money did prevent these job losses. 
However, we are far from out of the woods on this issue.
    In fact, the American Association of School Administrators 
issued the results of a survey just yesterday in which they 
projected that 275,000 education jobs across the Nation are at 
risk for the 2010-2011 school year.
    Education and Labor Committee Chair George Miller told The 
Washington Post yesterday the hardest hit by layoffs are the 
youngest and the most tech savvy teachers, exactly the people 
we need to keep teaching our kids in the 21st Century.
    Finally, not only would 275,000 potential job losses be a 
tragic blow to our children's education, but it is estimated 
that it would lead to 82,000 additional job losses from lost 
spending by the schools and the employees that were laid off.
    That is why we cannot reject intelligent and focused policy 
by Chairman Miller's Local Jobs For America Act under the guise 
of supposed deficit awareness. The money in this bill will not 
only help local economies grow again, allow state and local 
governments avoid tax increases, and keep sufficient police and 
fire personnel on the streets, but it will provide crucial on-
the-job training in the private sector and keep teachers in 
America's classrooms.
    I am proud to lend my name to this bill as a co-sponsor not 
only because it protects our economy in the short run, but 
because it makes investments in the education that will help us 
thrive in the long run.
    With that, Madam Chair, I look forward to hearing the 
Commissioner's report and I yield back.
    [The prepared statement of Representative Cummings appears 
in the Submissions for the Record on page 26.]
    Chair Maloney. Thank you very much.
    I would now like to introduce Commissioner Hall. Dr. Keith 
Hall is the Commissioner of the Bureau of Labor Statistics for 
the U.S. Department of Labor. The BLS is an independent 
national statistical agency that collects, processes, and 
analyzes essential statistical data for the American public, 
the United States Congress, other federal agencies, state and 
local governments, business, and labor.
    Dr. Hall also served as Chief Economist for the White House 
Council of Economic Advisers for two years under President 
Bush. Prior to that, he was Chief Economist for the U.S. 
Department of Commerce. Dr. Hall also spent 10 years at the 
U.S. International Trade Commission.
    We welcome you and look forward to your testimony. Thank 
you.

  STATEMENT OF DR. KEITH HALL, COMMISSIONER, BUREAU OF LABOR 
     STATISTICS; ACCOMPANIED BY: MR. PHILIP RONES, DEPUTY 
   COMMISSIONER, BUREAU OF LABOR STATISTICS; AND DR. MICHAEL 
    HORRIGAN, ASSOCIATE COMMISSIONER FOR PRICES AND LIVING 
             CONDITIONS, BUREAU OF LABOR STATISTICS

    Commissioner Hall. Madam Chair and Members of the 
Committee:
    Thank you for the opportunity to discuss the employment and 
unemployment data we released this morning.
    Nonfarm payroll employment rose by 290,000 in April. The 
unemployment rate edged up to 9.9 percent, and the labor force 
increased sharply.
    Job growth was fairly widespread, with gains in 
manufacturing, professional and business services, health care, 
and leisure and hospitality.
    Federal Government employment increased with the addition 
of 66,000 short-term workers for Census 2010. Nonfarm 
employment has risen by 573,000 since December, and 483,000 
jobs were added in the private sector.
    Manufacturing continued to add jobs in April. Employment in 
this industry has increased by 101,000 since December. Three 
industries--fabricated metal products, machinery, and primary 
metals--have accounted for more than half of factory job gains 
so far this year.
    Elsewhere in the goods-producing sector, mining employment 
continued to trend up over the month. The industry has added 
39,000 jobs since October. In construction, nonresidential 
building and heavy construction each added 9,000 jobs in April.
    Employment in professional and business services rose by 
80,000 over the month. Within the industry, job growth 
continued in temporary help services where employment has 
increased by 330,000 since September. Employment also rose in 
services to buildings and dwellings, and in computer systems 
design in April.
    Health care added 20,000 jobs over the month, in line with 
average monthly growth over the prior 12 months. Employment 
also continued to grow in leisure and hospitality. The industry 
has added 121,000 jobs since December, led by gains in food 
services.
    Federal Government employment rose in April, reflecting the 
hiring of 66,000 temporary workers for Census 2010. Employment 
in state and local governments was essentially unchanged.
    Within transportation, employment fell in courier and 
messenger services. Other major industries showed little change 
in employment.
    Turning now to measures from the Survey of Households, the 
unemployment rate edged up to 9.9 percent in April, and the 
number of unemployed persons was 15.3 million. Over the month, 
the number of unemployed who were re-entrants into the labor 
force rose to 3.7 million.
    In April, 6.7 million people had been jobless for 27 weeks 
or more. These long-term unemployed made up 45.9 percent of all 
unemployed persons, a record high.
    The labor force increased by 805,000 in April. The labor 
force participation rate--the percent of the population working 
or looking for work--rose by 0.3 percentage point to 65.2 
percent and has increased by 0.6 percentage point since 
December.
    The employment-to-population ratio increased to 58.8 
percent in April and also has risen by 0.6 percentage point 
since December. Among the employed, there were 9.2 million 
individuals working part time in April who preferred full-time 
work, about the same as March.
    In summary, employment rose by 290,000 in April, with gains 
in several major industries. The unemployment rate edged up to 
9.9 percent.
    My colleagues and I would now be glad to answer your 
questions.
    [The prepared statement of Commissioner Hall, together with 
Press Release No. USDL-10-0589, appears in the Submissions for 
the Record on page 27.]
    Chair Maloney. Thank you.
    I would like to begin with the good news. What are the 
brightest spots in this month's jobs report?
    Commissioner Hall. Well there are a number of bright spots. 
The job gains in both total job gains of 290,000 and the 
private-sector job gains of 231,000 were large gains, the 
biggest gains in about four years. But I also think the trend 
has been encouraging.
    Every month this year so far we have had job gains. We have 
added 573,000 jobs so far this year. I would say that growth 
was also diffuse; it was widespread. We have something called 
the Diffusion Index, which counts the number of industries that 
gain jobs versus the number of industries that lost jobs. This 
looks at 269 very detailed industries.
    And nearly two-thirds of those industries gained jobs this 
month. To give you some perspective on that, in March of 2009 
only 16.5 percent of those industries--of industries gained 
jobs. So that is a significant improvement.
    Manufacturing I think has been an encouraging sign. 
Manufacturing now has grown for four straight months. And this 
is important because manufacturing has born the brunt of about 
25 percent of the job loss in the Recession so far.
    Nonresidential construction has shown signs of life. That 
had been a consistent job loser. The last two months now we 
have had job growth. We have had about 61,000 jobs over 2 
months in nonresidential and heavy construction. Hopefully that 
is a turnaround in that industry.
    Average weekly hours have risen. This is yet another 
indicator that the labor market is tightening up and improving, 
both in terms of the total private hours and in manufacturing, 
which again is a leading indicator, the manufacturing one.
    And then of course the increase in the labor force. That 
was a sharp increase in the labor force. That is probably a 
sign of increasing confidence in the labor market by workers.
    And I'll point out one more data point which I think is a 
particularly important one to look at at this time, or at any 
recession, is looking at the employment-to-population ratio. 
The basic logic here is: Are jobs growing faster than the 
population is growing?
    The employment-to-population ratio has not only grown this 
month but has been growing all year. So I consider that to be a 
good sign.
    Chair Maloney. Are there signs that any additional sectors 
will start expanding in the near future?
    Commissioner Hall. Well the fact that the job growth was 
widespread I think is a good sign. It means there's overall 
strength. So that is encouraging that the job growth will 
hopefully continue to be broad.
    And then I think the temporary help services again added 
jobs. That continues to be an indicator of future job growth.
    And then the weekly hours worked I think continues to be a 
good sign. In fact, the weekly hours in construction went up a 
fair amount. So I think that's probably a good sign in an 
industry that's borne the brunt of a lot of the job loss.
    Chair Maloney. Are there any other further indicators that 
overall job gains will continue in coming months?
    Commissioner Hall. Well again I think the encouraging thing 
here is that it's a trend. You know, we have had job growth now 
for four straight months, and I think the last two months in 
particular it's been solid growth. So I think that's a good 
sign.
    Chair Maloney. Well I think the chart here, the famous JEC 
V Chart--we're not going to call it ``victory,'' but certainly 
a step in the right direction--shows with the red when former 
President Bush took office, we lost jobs. And in the last month 
that President Obama took office, the last month of President 
Bush's term, we lost over 770,000 jobs. And under the Obama 
Administration with Democrats, we have put in place many 
programs that have moved us in the right direction, and now the 
V Chart is becoming a step chart as we step up towards more 
jobs, and trend towards more job growth. Certainly not success, 
but a trending in the right direction as you aptly said, 
Commissioner Hall.
    Thank you so much for your testimony, and I now recognize 
Mr. Brady.
    [The chart titled ``Monthly Change in Nonfarm Payrolls'' 
appears in the Submissions for the Record on page 66.]
    Representative Brady. Thank you, Madam Chair.
    I would just caution, with 15 million people out of work, 
an all-time record high of long-term unemployment, I know that 
no one in Congress is raising a mission accomplished banner 
just yet.
    There are a lot of troubling signs. The Federal Government 
continues again to lead the job growth in these reports--
66,000. That leads the hospitality growth, the manufacturing 
growth; the Federal Government leads the construction, mining 
employment, building services, temporary help workers, health 
care; the Federal Government is hiring more than each of those 
sectors.
    Commissioner Hall, how many Federal Government workers have 
been hired since December? Do you know?
    Commissioner Hall. I think I can pull that up here quickly.
    Representative Brady. The reason I asked is, you cite that 
month in a number of the industry sectors. I would like to know 
what the comparison is on the government side.
    Commissioner Hall. Let's see. We're going to have to do a 
really quick calculation here on that. The last couple of 
months we have added about 120,000 jobs. For the year so far, 
it's been 155,000 in the Federal Government.
    Representative Brady. Thank you. Thank you, very much. 
That, too, continues to outpace manufacturing, health care, and 
a number of other sectors.
    Can I ask you about the initial unemployment claims? They 
have remained stubbornly high. The figure for the week ending 
May 1st is 444,000. So are initial unemployment claims actually 
higher now than they were at the beginning of the year? If the 
job market is recovering, shouldn't we expect initial 
unemployment claims to slow down?
    Commissioner Hall. Yes. Historically the unemployment 
claims will--they're more volatile, but they will track the 
payroll jobs pretty well.
    Representative Brady. Why is this number coming in so high 
month after month?
    Commissioner Hall. I'm not sure it's been inconsistent with 
the payroll job loss that we've had. You know, the job loss has 
still been significant up until a few months ago. So----
    Representative Brady. But even as the job recovery--again, 
painfully slow, but at least headed in some right direction, 
you know, shouldn't those who are entering, filing those 
initial claims be decreasing?
    Commissioner Hall. Yes, it should decrease.
    Representative Brady. Do you think--does this reflect 
layoffs of workers who have managed to hold onto their jobs, 
and now are being laid off for the first time? Or does it 
include people who have been laid off before, found a job, and 
then were laid off again?
    Commissioner Hall. I believe--it's not updated weekly, but 
I believe it's the latter; it's people who are being laid off--
they could well have been laid off before.
    Representative Brady. On the Census Bureau, they expect to 
hire how many workers? They've hired about 100,000; they expect 
to hire, what, 600,000, thereabouts, 500,000-600,000?
    Commissioner Hall. Yes, maybe in excess of that. They may 
have as much as 800,000, close to a million.
    Representative Brady. So that will boost the job numbers 
here for the next few months, as they have the last few months, 
and then decrease them later this summer? Those are about, 
what, eight-week jobs?
    Commissioner Hall. Yes, I believe that's right. They are 
temporary jobs.
    Representative Brady. Okay. Two days ago we had Treasury 
Assistant Secretary Alan Krueger. He presented findings at a 
hearing that, based on unofficial BLS data that indicate a 
rising trend of job openings by large employers, but not by 
small- and medium-sized employers. They're often called the 
engine of growth. But I guess I'm troubled by the thought that 
our Main Street versus our Wall Street companies are not 
hiring, are not creating job openings. Why is that? Why aren't 
small- and medium-sized businesses confident enough yet to 
hire?
    Commissioner Hall. I don't know. I don't have a good theory 
for that.
    Representative Brady. But that's your data he based his 
findings on? Is that correct?
    Commissioner Hall. Yes, that's correct.
    Representative Brady. Small- and medium-sized businesses 
aren't hiring at this point?
    Commissioner Hall. That's correct.
    Representative Brady. Okay. Thank you, Mr. Commissioner.
    Chair Maloney. Senator Klobuchar.
    Senator Klobuchar. Thank you very much.
    Thank you, Commissioner Hall. So could you explain, just 
very succinctly, why we add 290,000 new jobs, and then we see 
an increase in the unemployment, up to 9.9 percent?
    Commissioner Hall. Sure. The unemployment rate is a 
calculation of the people who were unemployed but who were 
actively looking for work.
    And so this particular month we had an increase in the 
number of people actively looking for work that were reentering 
the labor force.
    Senator Klobuchar. So before they were just not even 
looking? They had kind of given up, and now they started 
looking? Is that how you see it?
    Commissioner Hall. That's correct.
    Senator Klobuchar. Okay. And I know you have told me before 
that changes in temporary employment are always a sign of good 
things to come. What are those numbers looking like now?
    Commissioner Hall. The temporary help, we grew another 
26,000 jobs. And 330,000 jobs were added since September in 
that industry.
    Senator Klobuchar. And how about the people who are under-
employed, or who are working--they would like to work full time 
but they are working less hours? I always was struck by that as 
a statistic that people do not always look at.
    And that is part of the problem, to these people that I 
talk to in Minnesota, maybe they have part-time work but they 
are not where they used to be, and they are not where they want 
to be.
    Commissioner Hall. Right. We still have a large number of 
people who are part time for economic reasons, 9.2 million 
people.
    Senator Klobuchar. And how has that changed over time, and 
can you measure if they want to work more, as opposed to doing 
it by choice?
    Commissioner Hall. Yes, those 9.2 million people would 
prefer full-time work, about the same number as last month. I 
can tell you that our broadest measure of labor under-
utilization, our so-called--it's a terrible name--U-6, which 
are people who are actively looking but also include people who 
are under-employed by either being part-time, or people who are 
discouraged or otherwise marginally attached to the labor 
force.
    That ticked up as well, about two-tenths of a percent, like 
the unemployment rate; but again that is affected by the number 
of people re-entering----
    Senator Klobuchar [continuing]. Who are looking.
    Commissioner Hall [continuing], The labor force, yes.
    Senator Klobuchar. And then one of the things I have heard 
from people, recent graduates who just--I got a letter from a 
woman from St. Paul, Minnesota, who had a 24-year-old daughter, 
a 2008 college honors graduate, Mom says, stuck in a low-paying 
desk job and sinking under her debt. ``She just told me, I have 
no dreams anymore.''
    So what is happening with these young workers who are just 
recent college graduates? Do you have any numbers on those, or 
can you get it for me?
    Commissioner Hall. We can get it for you.
    [Letter dated May 19, 2010, transmitting Commissioner 
Hall's response to Senator Klobuchar appears in the Submissions 
for the Record on page 67.]
    Commissioner Hall. I can tell you just generally, those 
numbers have not been very good. The young folks, recent 
graduates, have borne more than their share of the brunt of the 
Recession, but we can get you more precise numbers.
    Senator Klobuchar. So as we are looking at policies and 
what we can do to work with businesses--we've talked about 
small businesses. As you know, I am a big fan of doing more 
with exports and those kinds of things to work as partners with 
private industry.
    The recent graduate issue, you and I have talked about the 
difference between someone with a college degree, advanced 
degree, high school degree. Do you have those numbers? And have 
they changed as we've added more manufacturing jobs, the 
percentages? I know we've always been struck by the great, vast 
difference between the unemployment rates with someone with a 
high school degree, and then someone with a college degree.
    Commissioner Hall. Sure. Those numbers are actually like 
they always are.
    Senator Klobuchar. Could you just quick go through them 
again so we're reminded of the shocking difference?
    Commissioner Hall. Sure. The unemployment rate for those 
with less than a high school diploma is 14.7 percent. And for 
those with a bachelor's degree and higher, it's 4.9 percent. So 
it is almost a 10 percentage point difference in the 
unemployment rate between those two groups.
    Senator Klobuchar. And that ratio, I was just wondering, 
maybe as manufacturing went up, or some other types of jobs 
increase, you just really haven't seen a change; so it 
continues to be the case of these advanced degrees, or a 
college degree is clearly one path to a job.
    Commissioner Hall. Yes. I think that's right. It is hard to 
track the impact from manufacturing on something like this, but 
with sort of a casual look at the data----
    Senator Klobuchar. How about the Veterans numbers? Soldiers 
that have come back in the last--from the Iraq/Afghanistan War. 
That's kind of how we have traced them.
    Commissioner Hall. Well the Gulf War II Era Veterans, the 
unemployment rate is 13.1 percent. So that is compared to 9.3 
percent for non-Veterans. So it is higher.
    Senator Klobuchar. Okay. Patty Murray and I have a bill 
we've been working on with Senator Begich, and I know there are 
similar House bills to work on this more and provide more 
opportunities. Because to me that just seems outrageous that 
those that have been serving our country have a higher 
unemployment rate.
    How about across the country? What are you seeing? We have 
talked about this before. You talked about the improvement in 
the diffusion rate, but how this has been a Recession that 
isn't just the Midwest or isn't just the East Coast. What are 
we seeing in terms of individual states--that will be my last 
question--with who is still at the top, who is at the bottom, 
and are there any trends by region?
    Commissioner Hall. Sure. The states with the highest 
unemployment rates continue to be states that have had the 
highest rates for most of the Recession. Michigan I think tops 
the list at 14.1 percent. Nevada, California, Rhode Island, 
Florida, South Carolina, the District of Columbia, and 
Illinois. Those are all states that have double digit 
unemployment rates. There are actually a few more than that, 
but those are the highest ones.
    There's not a real--again, there's really not a real 
regional pattern there. It does seem like states, particular 
states have been harder hit than other states, but it is hard 
to see sort of a simple, regional pattern, or even a simple 
industry pattern in that.
    Senator Klobuchar. Alright. And one last thing, because I 
am going to have to do a floor speech. I head up the Tourism 
Subcommittee, and you said there has been some increase in 
travel and leisure? Is that correct?
    Commissioner Hall. Yes.
    Chair Maloney. The gentlelady's time has expired. Senator 
Klobuchar. Thank you. I appreciate it.
    Chair Maloney. So you can answer the question, and then we 
will move on.
    Senator Klobuchar. Okay. You can answer it.
    Commissioner Hall. Oh, okay. Sure. The leisure and 
hospitality industry had a significant increase of 45,000 jobs.
    Senator Klobuchar. Okay. Very good. Thank you.
    Chair Maloney. Very good. Mr. Cummings.
    Representative Cummings. Thank you very much, Madam Chair.
    Mr. Hall, I am going to drill down a little bit on 
something that Ms. Klobuchar just asked you about. And I'm just 
sitting here sometimes and I watch the press and I can imagine 
them putting forth a headline, ``The unemployment rate has gone 
up .2 percent.''
    But when we drill down a little bit, and just following up 
again, there were some people who came back into the system? Is 
that right? They had not been looking for jobs? Is that right?
    Commissioner Hall. That's correct.
    Representative Cummings. And do you call those ``re-
entrants''? Is that what you call them? What do you call them?
    Commissioner Hall. Yes, re-entrants is one way of looking 
at it. I was talking about the increase in the labor force, 
which would include new entrants and re-entrants, and people 
who found jobs.
    Representative Cummings. Okay, so new and re-'s. So about 
how many of those were there?
    Commissioner Hall. The labor force rose by 805,000 over the 
month. That's a large number.
    Representative Cummings. That is a huge number. 800,000?
    Commissioner Hall. Yes.
    Representative Cummings. So if we didn't have these re-
entrants and new entrants, you probably would have a rate I 
guess that would be a little lower than the 9.7? I'm just doing 
some quick math off the top of my head.
    Commissioner Hall. Yes. I don't want to speculate on that, 
but----
    Representative Cummings. I am not asking you to speculate. 
I'm just asking you to do a little math.
    Commissioner Hall. That's correct.
    Representative Cummings. All right. So then--and I was 
listening very carefully to my good friend, Mr. Brady, who was 
talking about all of the government jobs. But then I look and I 
see that in manufacturing we added 44,000. Those are private 
jobs, are they not, probably?
    Commissioner Hall. They are.
    Representative Cummings. They are private jobs.
    Factory employment, up 101,000? Is that correct?
    Commissioner Hall. There were 101,000 jobs gained in 
manufacturing over the past 4 months.
    Representative Cummings. Would those be private jobs?
    Commissioner Hall. They are.
    Representative Cummings. Construction. That may be federal, 
or private, or what? What's that?
    Commissioner Hall. Those are all private jobs.
    Representative Cummings. 14,000 jobs. That's a lot of jobs.
    Nonresidential and building construction, 9,000. Mining, 
7,000. Those are private?
    Commissioner Hall. Yes, they are.
    Representative Cummings. Now let me ask you this. It's my 
understanding that the GDP, about 60 to 70 percent of it, 
somewhere in that area, is about spending. In other words, 
people were spending money? Is that--I know that may not be in 
your ballpark, but is that to your knowledge accurate?
    Commissioner Hall. Yes, that's correct.
    Representative Cummings. So when I look at something like 
manufacturing, 44,000 jobs; factory employment, 101,000 jobs; 
construction--somebody must be buying something. I mean, is 
that a logical conclusion?
    Commissioner Hall. Yes, it is.
    Representative Cummings. And so one of the things that we 
were trying to do, I think this President was trying to do, was 
to try to get people to spend more so that we would get more 
people employed. Is that right?
    Commissioner Hall. Yes.
    Representative Cummings. To your knowledge. Now let's go 
back to these Census jobs. You said that--how many of these 
jobs are Census jobs, the ones that--how many did we pick up 
this month?
    Commissioner Hall. We added 66,000.
    Representative Cummings. 66,000. And the total jobs that 
were picked up were how many?
    Commissioner Hall. 290,000.
    Representative Cummings. 290,000. So approximately, what, a 
third, a little bit--well, no, about a fourth of them were 
Census? Is that right?
    Commissioner Hall. Yes.
    Representative Cummings. Okay, close.
    Commissioner Hall. Yes.
    Representative Cummings. But basically you are talking 
about a lot of other types of jobs coming into play. So when 
the headlines are written, I mean I guess you would have to 
take all of those kinds of things into consideration, would you 
not?
    Commissioner Hall. Yes.
    Representative Cummings. Now, you know one of the things 
that was very interesting, too, is that my good friend Mr. 
Brady talked about Mr. Krueger the other day talking about, you 
know, the fact that like a lot of times our small businesses 
are not doing as much hiring as we would like to see them do. 
And one of the things that Mr. Krueger also said--and it really 
makes these numbers even more interesting--is that a lot of 
these small businesses are not able to get loans. So therefore, 
while the bigger businesses may have the capital that they need 
to do the things that they do, the small businesses such as 
businesses in my own District, ones that I know of who cannot 
get a line of credit, would be able to do the contract if they 
were able to get a line of credit, they're not able to get it 
so therefore they are not able to do the contracts they would 
normally do, therefore are unable to employ people like they 
would normally employ them.
    And so I think that is a very significant factor when there 
is no--when credit is a problem. Would you agree?
    Commissioner Hall. Yes.
    Representative Cummings. And so quite a bit--this is, while 
I agree with Ms. Klobuchar that, you know, we cannot conclude 
that everything is rosy, that we are still marching in a 
positive direction when you consider all the things that we 
just talked about? Is that an accurate statement?
    Commissioner Hall. That is.
    Representative Cummings. Thank you.
    Chair Maloney. Thank you. I would like to go back to a 
point that was raised by Mr. Cummings and Mr. Brady on Dr. Alan 
Krueger's testimony, the Chief Economist at the Treasury.
    He said the rebound, or the hiring, was very uneven between 
size of companies, between the large and the small. From the 
BLS data that you have, are the hiring patterns among large and 
small firms different from what you have seen in prior 
recessions?
    Commissioner Hall. Sure. I can talk about the last two 
recessions. The 2001 recession in particular, large firms 
experienced more of the net job loss, and large firms had 
very--had job loss well into 2003, as a matter of fact. So the 
last recession was very much centered in large firms.
    The 1990 recession, it was actually the reverse. There were 
more net job losses in small firms rather than large firms. So 
it does vary. But the most recent recession was centered in 
large firms.
    This Recession, at least through the beginning of the 
Recession, the job loss was very much in both large and small 
firms.
    Chair Maloney. Well many people believe the reason the 
small firms are not rebounding is the lack of access to 
capital. In your opinion, what are the reasons why small firms 
are not hiring?
    Commissioner Hall. I don't think I know enough about it to 
offer an opinion on that. I can tell you that if small 
businesses had trouble getting loans, then that would be a 
concern, that they would have trouble adding jobs. But I can't 
say that I know enough about the financial markets to comment 
on that.
    Chair Maloney. Have you seen any change in small- and mid-
sized firms in recent months during this recovery? Are they 
picking up somewhat now?
    Commissioner Hall. Well, certainly the data that Dr. 
Krueger discussed was our data, and it does in fact show a 
little bit of a pickup in large firms, but not so much in 
small- and medium-sized firms.
    Chair Maloney. Okay. With Mother's Day a few days away, it 
seems like the right time to ask you about working mothers. And 
at the beginning of this recession, men were particularly hard 
hit, as traditionally male sectors like manufacturing and 
construction suffered significant job losses. In recent months, 
as these sectors have begun to recover and add workers, are 
women gaining jobs in those male-dominated sectors?
    Commissioner Hall. No, not so much. They are under-
represented in those particular sectors.
    Chair Maloney. And what has happened in recent months to 
employment in female-dominated sectors, such as education, and 
working for these local and federal and state governments?
    Commissioner Hall. Well the education sector didn't 
experience net job loss, but the job growth has certainly 
slowed a bit in education. And in state and local governments 
there hasn't been any job growth for a while.
    Chair Maloney. What is the unemployment rate for working 
mothers? And working mothers--how have they done in this Great 
Recession compared with other women?
    Commissioner Hall. The unemployment rate for working 
mothers is 8.3 percent. And that is an increase of 3.7 
percentage points during the Recession. That is actually fairly 
comparable to women who are not mothers. That unemployment rate 
is 8 percent. Probably the more revealing number is, rather 
than the unemployment rate, is to look at the employment-
population ratio--the percent that are working. The likelihood 
that mothers were employed fell by 2.3 percentage points during 
this Recession, compared to a decline of 1.9 percentage points 
for women who aren't mothers.
    Chair Maloney. In the overall unemployment rate for working 
mothers, is it different for working mothers who are sole 
bread-winners for their families?
    Commissioner Hall. Yes. Actually, that is much higher. That 
unemployment rate is 13.6 percent.
    Chair Maloney. And how have minority working mothers fared?
    Commissioner Hall. Again, that one has been much higher. 
African American working mothers, the unemployment rate is 13.4 
percent. And for Hispanic working mothers, the unemployment 
rate is 11.8 percent; both higher.
    Chair Maloney. And given the economic challenges facing 
families during the Recession, have more mothers entered the 
work force and searched for work?
    Commissioner Hall. Actually, the answer is yes. While the 
labor force as a whole, labor force participation, has gone 
down during the recession, it has actually gone up slightly for 
women with children, for mothers.
    Chair Maloney. And, finally, how has the experience of 
working mothers during the Great Recession compared to prior 
recessions?
    Commissioner Hall. Well in the early 1980s, working mothers 
had a larger increase in their unemployment rate. In the 1990 
recession, the unemployment rate went up by 1.6 percentage 
points compared to 1.3 percentage points for women without 
children, for example. This Recession, though, the unemployment 
rate for working mothers went up a lot more, almost double that 
of the 1990's recession, 3.4 percentage points.
    Chair Maloney. Well, my time has expired.
    Mr. Brady.
    Representative Brady. Thank you, Madam Chair.
    Normally the more severe the recession the quicker America 
bounces back. That's not happening this time. We don't have a 
V-shaped recovery. It is very sloping, a gradual U-shaped 
recovery, much slower, a third as slow as the 1982, 1981-1982 
recovery.
    I am convinced, you know, part of that has to do with 
businesses not having confidence to make those key investments, 
but they are anxious to, in my view, anxious to get back on the 
field.
    But what small businesses tell me--and I know in Washington 
we like to beat our chest and proclaim all of our programs have 
spurred the economy, but when I run our programs past our small 
businesses in southeast Texas, they say, look, you know, the 
gimmicks won't work. You know, the small inducements. I'm not 
going to bring on new workers till I see the customers, and I 
see the clients.
    Retail is moving a little but not much. I think they added 
12,000 jobs last month. There were 15 million people 
unemployed. So, you know, there's sort of a blip in that 
screen.
    I am convinced, just listening back home, that a lot of 
people are genuinely concerned not just about their own job but 
by the financial crisis here in America with our budget, very 
concerned. And every poll shows that Americans are increasingly 
concerned that this runaway spending, these dangerous levels of 
debt, will pull back, hold back economic growth.
    I was looking at the numbers. Greece was foremost yesterday 
in the news, and continues to be today. You could see people 
gathered around the TV set watching what was going on. But if 
you look at Europe and those five countries that are most 
troubled, if you look at their deficits, the most troubled 
countries have deficits of between 4.1 percent, the lowest in 
Italy, 16 percent, over 16 percent in Greece; America this year 
will be toward the high end of that at 10 percent annual 
deficit this year.
    If you look at the gross central government debt of again 
the five PIIGS countries, the ones that are most in danger over 
there, what their governments owe ranges from 41 percent in 
Spain to 125 percent in Greece. We are already into the middle 
of that at 60 percent. The Congressional Budget Office tells us 
that if we adopt President Obama's budget that we will be at 90 
percent of our GDP by the end of this decade. So we will be 
toward the high end of the troubled, financially suspect 
countries in Europe that are causing trading panics and riots 
in the street, and which is not going to happen here by the 
way.
    But it is a real concern. Everywhere I go back home, 
average people are not just worried about their checkbook; they 
are worried about America's checkbook.
    In your Household Survey, seeing that retail, which is the 
best sign of what they are doing, is again painfully slow on 
the uptick, you know, do you measure the consumer confidence? 
Are there other indicators within your numbers that tell us 
what people are doing?
    It seems to me they are holding tight. They are spending 
what they need to. They are worried about the jobs. We don't 
see that bounce back you normally would after a severe 
recession.
    Commissioner Hall. Well, our data of course is sort of a 
step removed from actual consumer spending and consumer 
confidence because we are looking at employment levels, and the 
employment firm reaction to things.
    Representative Brady. What do you see on the auto side? You 
know, the Cash For Clunkers sort of accelerated some of that 
spending. Now it's gone back to probably a more normal rate. 
What do you see on the auto side, for example?
    Commissioner Hall. In motor vehicle production we had 
modest growth of about 4,000 jobs. And in automobile dealers, 
retail dealers, we added about 2,000 jobs for the month.
    Representative Brady. So pretty flat?
    Commissioner Hall. It's not been strong, but it's been 
modest.
    Representative Brady. Any other retail indicators?
    Commissioner Hall. Just pretty much the retail trade, I 
think, is the most directly linked to something like consumer 
spending.
    Representative Brady. In past recoveries from recessions, 
what have you seen on retail? What types of growth, month over 
month, you know, would we expect to see?
    Commissioner Hall. You know, I don't know with respect to 
employment. I don't know what that's going to look like. I can 
tell you a little bit about what I know about other data.
    I know consumer spending and GDP over the long run will 
sort of track together. In short-run periods they don't 
necessarily do that, but GDP does rely very much on consumer 
spending.
    Representative Brady. About two-thirds of it?
    Commissioner Hall. Yes.
    Representative Brady. Do you think that will shift? I'm out 
of time, I apologize, do you think that will shift over time? 
We'll be less consumer dependent at the end of--or when we 
reach full recovery?
    Commissioner Hall. That actually I think is an interesting 
question about this Recession, because consumer spending didn't 
always--wasn't always that large a percent of GDP.
    Representative Brady. Thanks.
    Chair Maloney. Thank you. Mr. Cummings is recognized.
    Representative Cummings. Thank you very much, Madam Chair.
    Mr. Hall, tell me about, you know, we've got the summer 
months coming up now, and we've got young people who are--we've 
got a lot of people graduating from college and high school. 
Tell me, what is the unemployment rate for our teens, the teen 
unemployment rate, and I want to know what it is for African 
Americans, for Whites, and Hispanics.
    Commissioner Hall. The unemployment rate for teenagers is 
very high, it's 25.4 percent right now.
    Representative Cummings. And do you have a breakdown for 
African Americans, and Whites, and Hispanics? Would you have 
that?
    Commissioner Hall. Not teenagers, but I have just those 
groups overall. We can get you the teenager--oh, we can get the 
teenager one. Do you want me to just tell you the unemployment 
rate for African Americans?
    Representative Cummings. Sure.
    Commissioner Hall. That's 16.5 percent.
    Representative Cummings. Is that pretty much what it was 
last time?
    Commissioner Hall. Yes. It's unchanged over the month. And 
for Hispanics it is 12.5 percent, also little changed.
    Representative Cummings. Okay. And this is the--Mr. Rones, 
you can go ahead. Keep your voice up.
    Mr. Rones. For African American teenagers, the 16 to 19 
year olds, the rate was 37.3 percent. That's a little lower 
than it's been in recent months. Because that's a small group, 
that really jumps around from month to month.
    The White rate is 23.5 percent, and that's been fairly 
stable for recent months.
    Representative Cummings. All right. And I know that 
probably even when you're not in a recession you're going to 
have probably quite a few teenagers not employed, but I take it 
that that's pretty high compared to say what you might consider 
a pretty stable economic situation?
    Commissioner Hall. That's correct.
    Representative Cummings. Very well. I want to go back to 
this thing of these people coming back, these re-entrants and 
new folks. One of the factors that will temper any dent we can 
make in the unemployment rate is the fact that people who had 
stopped looking for work will rejoin the labor force when they 
see an economy that appears to be improving.
    Once they rejoin the labor force, and until they find work, 
they are again counted as unemployed? Is that correct? So in 
other words, how do you know that they are looking? Are you 
following what I'm saying?
    Commissioner Hall. Yes, absolutely. They are counted as 
unemployed when they re-enter and start looking, yes.
    Representative Cummings. But how do you know they are 
looking?
    Commissioner Hall. We actually conduct a Household Survey. 
So we do an in-person and phone survey of households and ask 
people, essentially.
    Representative Cummings. So what kind of increases in the 
unemployment rate, what kind of increases do we expect, that 
is, of the people re-joining, should we expect in the labor 
force? Because as I see it, you know, this is a kind of a tough 
situation.
    As the economy gets better, you know, I would imagine 
people look out there and say, you know what, I've been 
unemployed for awhile, but now I am going to get back out there 
because I think I've got a chance of finding a job. So the re-
entrants continue to increase, and I'm not even--I have not 
even counted the new people, like these folks coming out of 
college and high school right now.
    So you have a steady increase, I take it, if the economy 
gets better? Is that a reasonable assumption?
    Commissioner Hall. If the increase, you mean in the 
unemployment rate?
    Representative Cummings. No, yeah--yes, right. In other 
words, you have got more people to deal with because you have 
got more people looking.
    Commissioner Hall. Sure. It is not at all uncommon in the 
early stages of a recovery to add jobs and have the 
unemployment rate go up because people are re-entering the 
labor force, as you say.
    Representative Cummings. And so do you--and so you can't 
anticipate what might happen, other than what you have just 
said?
    Commissioner Hall. Right, right.
    Representative Cummings. So is it easier for you to 
calculate how many people have left the labor force in this 
Recession? And can you estimate how many you expect to return? 
I mean, looking at it from that perspective?
    Commissioner Hall. Um----
    Representative Cummings. And if historic data suggests 
anything with regard to that.
    Commissioner Hall [continuing]. Sure----
    Representative Cummings. You just made a statement that 
sounded like you were looking at something historic, so----
    Commissioner Hall [continuing]. Right. It's actually one of 
the reasons why I sort of pointed out the employment-to-
population ratio, because that kind of cuts through all whether 
people are looking or not. It's how many people are employed 
versus how many people live in the country.
    So that's sort of a nice way of cutting through all that. 
And we have had a significant drop in the employment-to-
population ratio. This Recession it's dropped 3.9 percentage 
points, which is pretty significant. But the last--this year, 
so far, that's actually increased six-tenths of a percentage 
point. So we've actually had, started to get some recovery in 
that, which is a very good sign.
    Representative Cummings [continuing]. Thank you, Madam 
Chair.
    Chair Maloney. Thank you very much--this is good news 
today. This is the second consecutive month of positive 
employment gains. And after weathering the harsh storms of 2009 
and 2008 where we were losing jobs, it is good to see some rays 
of sunshine.
    This is not success, but as this chart shows we are 
trending, we are moving in the right direction. It is not 
success, but we are making progress. And we in Congress will 
continue working on policies that will help to create jobs so 
that we can continue this progress.
    We thank you very much, Commissioner, for your testimony 
today.
    This meeting is adjourned.
    [Whereupon, at 10:33 a.m., Friday, May 7, 2010, the hearing 
was adjourned.]

                       SUBMISSIONS FOR THE RECORD

 Prepared Statement of Carolyn Maloney, Chair, Joint Economic Committee
    Today's report from the Bureau of Labor Statistics provides fresh 
evidence that the labor market is strengthening and we are on the path 
to economic recovery.
    In April, we added 290,000 jobs, including 231,000 jobs in the 
private sector. In the last two months we have added 520,000 jobs, with 
almost 80 percent in the private sector.
    Although the unemployment rate rose to 9.9 percent, the increase is 
due to re-entrants into the labor force--a sign of increased optimism 
about job prospects.
    We have come a great distance in the past 15 months, since the lows 
of the Great Recession, but getting back the jobs lost in the past 
decade is going to take time. By moving quickly and taking bold 
actions, the Administration and Congress slowed the decline and 
restored the economy to growth in the second half of 2009.
    The Recovery Act, which President Obama signed into law in February 
2009, provided tax relief for 95 percent of American families, expanded 
credit to small businesses, extended unemployment benefits and created 
jobs while investing in clean energy technologies, infrastructure, and 
education.
    Additional actions since then to create jobs and help small 
businesses include:

        The Worker, Homeownership & Business Assistance Act, which 
        expanded the first-time homebuyer tax credit, and enhanced 
        small business tax relief.

        The HIRE Act, which provides tax incentives for businesses that 
        hire out-of-work Americans.

        The House of Representatives passed the Disaster Relief and 
        Summer Jobs Act of 2010, which supports an additional 300,000 
        summer jobs for young workers.

    In addition to today's job numbers, we are seeing more and more 
evidence that the actions taken are working. After 4 straight quarters 
of negative growth, the economy has now grown for three straight 
quarters. Retail sales have increased for three straight months. Sales 
of both existing and new homes increased in March with sales of new 
single family homes rising by almost 27 percent.
    While it is encouraging to see these signs of progress and the 
return of job growth, we will need stronger growth to get all 
unemployed Americans back to work.
    As we focus on getting our national economy going, families all 
over are grappling with their family economy. Working mothers are key 
contributors to both--and in fact on Monday we will be releasing a 
report that looks at how working moms have fared during the Great 
Recession.
    For the overall workforce, unemployment remains at unacceptably 
high levels--with more than 15 million Americans out of work. Almost 
half of the unemployed have been out of work for more than six months. 
Almost one-third have been unemployed for over a year.
    African American and Hispanic workers face unemployment rates of 
16.5 and 12.5 percent, respectively, well above the overall 
unemployment rate of 9.9 percent.
    The JEC has begun a series of reports to better understand the 
employment challenges among different demographic groups. In March, we 
released a report on long-term unemployment in the African-American 
community. Earlier this week, we put out a report on unemployment among 
Hispanic workers. Later this spring, we will be examining the 
challenges facing younger members of the labor force.
    While hiring has started to increase, that hiring is uneven.
    Just two days ago, Dr. Alan Krueger, Assistant Secretary for 
Economic Policy and Chief economist at the Treasury Department, 
testified before this committee that hiring among smaller companies 
remains weak. He testified that small businesses are generally the 
drivers of new jobs during recoveries but larger establishments have 
been the ones to expand hiring during this recession. He testified that 
access to credit for small businesses is a large part of the problem 
keeping them from hiring.
    I know my Republican colleagues share my commitment to doing 
everything we can to help small businesses get the loans they need so 
that they can expand their operations and hire more people.
    We need to both identify new policies that unleash the job creating 
power of small businesses and support the sound proposals which have 
been put forward by the Obama Administration.
    I'm particularly supportive of the $30 billion Small Business 
Lending Fund proposed by the Administration, because it targets the 
small and mid-sized community banks at the center of small business 
lending. While these banks represent 20 percent of all bank assets, 
they account for more than half of all small business loans. By 
transferring funds from TARP to create this fund, we can get new loans 
out into the community--growing businesses and adding jobs.
    I also co-sponsored HR 4302, the Small Business Job Creation and 
Access to Capital Act, which would raise the cap on SBA 7(a) loans from 
$2 million to $5 million. Raising the cap on loans can have a powerful, 
positive impact on small businesses and is something we should move 
through Congress as quickly as possible.
    While today's report on the April employment situation shows 
continued progress, we need to keep our eye on the most important 
thing--creating jobs, jobs, jobs.
    I look forward to hearing additional information about the April 
employment numbers from Bureau of Labor Statistics Commissioner Dr. 
Keith Hall.

                               __________

            Prepared Statement of Representative Kevin Brady

    I am pleased once again to join in welcoming Dr. Hall before the 
Committee this morning.
    Today's report is mixed news for American workers and their 
families. On the one hand, payroll employment increased by 224,000 
after excluding 66,000 temporary Census jobs. On the other hand, the 
unemployment rate rose to 9.9 percent. The number of long-term 
unemployed workers reached an all-time high of 6.7 million, and the 
long-term unemployed as a percent of all unemployed workers also 
reached an all-time high of 45.9 percent.
    A painfully slow job recovery is better than no recovery, but for 
the 15.3 million Americans who are out of work and waiting for 
Washington Democrats to finally focus on jobs, this report is 
disheartening. At this slow pace it will take much of the decade to 
return to normal employment levels.
    Consumers and businesses are increasingly concerned that runaway 
government spending and a dangerous level of debt could lead America 
down the path on which Greece has now found itself. Further hindering 
America's recovery are small businesses reluctant to hire workers while 
Congress is demanding new taxes, higher energy prices and more 
expensive health care costs. Right now, Washington is standing firmly 
in the way of America's recovery.
    Although real GDP grew at an annual rate of 3.2 percent in the 
first quarter of 2010, nearly half of this growth was due to a one-off 
restocking of inventory. Real final sales, which are a better measure 
of the underlying trend in real GDP than the headline number, rose by 
only 1.6 percent in the first quarter of 2010.
    In line with this modest growth trend, the most recent Blue Chip 
consensus forecast of private economists predicts that real GDP will 
grow by 3.1 percent in 2010, while payroll employment will increase by 
an average of 117,000 per month in 2010. Unfortunately, such slow 
growth in payroll employment means that the unemployment rate will 
remain elevated. Indeed, the Blue Chip consensus forecast predicts that 
the unemployment rate will still be 9.4 percent in the fourth quarter 
of 2010.
    At the same point in recoveries from comparable severe recessions, 
the Reagan recovery of 1981-82 was three times as strong in job 
creation and nearly twice as strong in real GDP growth as the current 
recovery.
    That is explained by vastly different economic policies. The 
economic policies of the federal government can be either a tailwind 
accelerating real GDP growth or a headwind slowing it down. President 
Reagan pursued pro-growth policies including large reductions in 
marginal tax rates, deregulation, and trade liberalization. Combined 
with the disinflationary monetary policies under Federal Reserve 
Chairmen Paul Volcker and Alan Greenspan, Reagan laid the foundation 
for two decades of prosperity.
    In contrast, President Obama and Congressional Democrats have 
pursued largely anti-growth policies that have hindered this recovery. 
Businesses are delaying critical hiring, investment and expansion 
decisions based on costly mandates, premium increases, and higher taxes 
from the implementation of the recently passed health care legislation 
and their uncertainty over ``cap and trade,'' ``card check,'' financial 
services reform legislation, and other regulatory initiatives.
    Private businesses create more than four out of every five jobs in 
the United States. Instead of providing encouragement, President Obama 
and this Congress have given entrepreneurs reason to worry.
    Yesterday, the U.S. stock market fell by more than 3.2 percent on 
widespread fears that the Greek debt crisis would spread to Ireland, 
Italy, Portugal, and Spain, which also have high levels of government 
deficits and debt. In 2009, central government budget deficits in these 
countries collectively known as the PIIGS ranged from 4.1 percent in 
Italy to 16.3 percent in Greece, while gross central government debt 
ranged from 41.2 percent in Spain to 125.7 percent in Greece.
    After years of reckless spending, Greece was forced to seek a 
bailout from the IMF and other European countries. Now, the Greek 
government must slash spending. The dashed expectations among the Greek 
public for government salaries, pensions, and other benefits have 
provoked strikes and riots, causing three deaths.
    However, there is another country whose government budget deficit 
and debt could readily reach the alarming levels found in the PIIGS. 
Unfortunately for the American people that country is the United 
States.
    According to the CBO, the federal budget deficit will be 10.3 
percent of GDP in fiscal year 2010 and the publicly held federal debt 
will be 63.2 percent of GDP at end of fiscal year 2010. If the 
Democratic majority in Congress adopts President Obama's budget, 
however, the CBO projects that the federal budget deficits would exceed 
4 percent in every fiscal year during the next decade, and publicly 
held federal debt would be 90.0 percent of GDP at the end of fiscal 
year 2020.
    President Obama and Congressional Democrats are pursuing reckless 
fiscal policies that are clearly unsustainable. Unless their excessive 
spending, deficits, and debt accumulation are quickly reversed, the 
United States may experience its own debt crisis. We are putting the 
future of our children and grandchildren in grave jeopardy. Unlike 
Greece, however, no one will be around to bail us out.
    Dr. Hall, I look forward to hearing your testimony.

                               __________

        Prepared Statement of Representative Elijah E. Cummings

    Thank you, Madam Chair. Thank you also to Commissioner Hall and his 
team at the Bureau of Labor Statistics.
    The last two hearings held by this committee have cast important 
light on some sobering truths about the labor market.
    First, we know that the consequences of unemployment are severe--
both for the individual, and their children.
    The unemployed are not only vulnerable to conditions like 
depression, but are also at a higher risk for heart attacks and other 
stress-related events.
    In fact, studies by Dr. von Wachter showed that the unemployed, on 
the whole, experienced a shorter life span, simply from being 
unemployed.
    Let me say that again--the unemployed, on the whole, experience a 
shorter life span.
    Pervasive unemployment is a virus and an epidemic, and it requires 
the attention we would give to any public health concern.
    What we also enunciated at recent hearings was that for many 
unemployed workers, substantial retraining is now necessary.
    This retraining often includes a return to the classroom, which in 
and of itself requires a significant financial commitment.
    We are asking our workers to commit to serious change, and as a 
result, we owe them a serious return on this new investment in 
education.
    Therefore, we need to learn from and build on the success of the 
programs we highlighted last week--in Atlanta, San Antonio, Boston, and 
Baltimore--that successfully get the unemployed into training and back 
out to work.
    However, the required investments in education do not end with 
worker retraining programs and higher education.
    The elementary and secondary education infrastructure is in dire 
straits itself--as we know, the Recovery Act provided over $100 billion 
dollars to state and local governments to ward off teacher layoffs.
    As we had hoped, the Stimulus money did prevent these job losses--
however, we are far from out of the woods.
    In fact, the American Association of School Administrators issued 
the results of a survey yesterday, in which they projected that 275,000 
education jobs across the nation are at risk for the 2010-2011 school 
year.
    As Education and Labor Committee Chairman George Miller told The 
Washington Post yesterday, the hardest hit by the layoffs are the 
youngest--and most tech-savvy--teachers; exactly the people we need to 
help our children land in the new jobs of the 21st century.
    Finally, not only would 275,000 potential job losses be a tragic 
blow to our children's education, but it is estimated that it would 
lead to 82,000 additional job losses from lost spending by the schools 
and the employees that were laid off.
    That is why we cannot reject intelligent and focused policy--like 
Chairman Miller's Local Jobs for America Act--under the guise of 
supposed deficit awareness.
    The money in this bill will not only help local economies grow 
again, allow state and local governments to avoid tax increases, and 
keep sufficient police and fire personnel on the streets, but it will 
provide crucial on-the-job training in the private sector and keep 
teachers in America's classrooms.
    I am proud to lend my name to this bill as a co-sponsor, not only 
because it protects our economy in the short run, but because it makes 
investments in education that will help us thrive in the long run.
    Madam Chair, I look forward to Dr. Hall's testimony and a 
productive discussion this morning. With that, I yield back.

                               __________

    Prepared Statement of Keith Hall, Commissioner, Bureau of Labor 
                               Statistics

    Madam Chair and Members of the Committee:
    Thank you for the opportunity to discuss the employment and 
unemployment data we released this morning.
    Nonfarm payroll employment rose by 290,000 in April. The 
unemployment rate edged up to 9.9 percent, and the labor force 
increased sharply. Job growth was fairly widespread, with gains in 
manufacturing, professional and business services, health care, and 
leisure and hospitality. Federal government employment increased, with 
the addition of 66,000 short-term workers for Census 2010. Nonfarm 
employment has risen by 573,000 since December, with 483,000 jobs added 
in the private sector.
    Manufacturing continued to add jobs in April (44,000). Employment 
in this industry has increased by 101,000 since December. Three 
industries--fabricated metal products, machinery, and primary metals--
have accounted for more than half of factory job gains so far this 
year.
    Elsewhere in the goods-producing sector, mining employment 
continued to trend up over the month (7,000); the industry has added 
39,000 jobs since October. In construction, nonresidential building and 
heavy construction each added 9,000 jobs in April.
    Employment in professional and business services rose by 80,000 
over the month. Within the industry, job growth continued in temporary 
help services (26,000), where employment has increased by 330,000 since 
September. Employment also rose in services to buildings and dwellings 
(23,000) and in computer systems design (7,000) in April.
    Health care added 20,000 jobs over the month, in line with average 
monthly growth over the prior 12 months. Employment also continued to 
grow in leisure and hospitality (45,000). The industry has added 
121,000 jobs since December, led by gains in food services.
    Federal government employment rose in April, reflecting the hiring 
of 66,000 temporary workers for Census 2010. Employment in state and 
local governments was essentially unchanged.
    Within transportation, employment fell in courier and messenger 
services (-21,000). Other major industries showed little change in 
employment.
    Average hourly earnings of all employees on private nonfarm 
payrolls were up 1 cent in April to $22.47. Over the past 12 months, 
average hourly earnings have increased by 1.6 percent. From March 2009 
to March 2010, the Consumer Price Index for All Urban Consumers (CPI-U) 
rose by 2.4 percent.
    Turning now to measures from the survey of households, the 
unemployment rate edged up to 9.9 percent in April, and the number of 
unemployed persons was 15.3 million. Over the month, the number of 
unemployed who were reentrants to the labor force rose to 3.7 million.
    In April, 6.7 million people had been jobless for 27 weeks or more. 
These long-term unemployed made up 45.9 percent of all unemployed 
persons, a record high.
    The labor force increased by 805,000 in April. The labor force 
participation rate--the percent of the population working or looking 
for work--rose by 0.3 percentage point to 65.2 percent and has 
increased by 0.6 percentage point since December. The employment-
population ratio increased to 58.8 percent in April and also has risen 
by 0.6 percentage point since December. Among the employed, there were 
9.2 million individuals working part time in April who preferred full-
time work, about the same as in March.
    In summary, employment rose by 290,000 in April, with gains in 
several major industries. The unemployment rate edged up to 9.9 
percent.
    My colleagues and I now would be glad to answer your questions.

    [GRAPHIC] [TIFF OMITTED] T7314.001
    
    [GRAPHIC] [TIFF OMITTED] T7314.002
    
    [GRAPHIC] [TIFF OMITTED] T7314.003
    
    [GRAPHIC] [TIFF OMITTED] T7314.004
    
    [GRAPHIC] [TIFF OMITTED] T7314.005
    
    [GRAPHIC] [TIFF OMITTED] T7314.006
    
    [GRAPHIC] [TIFF OMITTED] T7314.007
    
    [GRAPHIC] [TIFF OMITTED] T7314.008
    
    [GRAPHIC] [TIFF OMITTED] T7314.009
    
    [GRAPHIC] [TIFF OMITTED] T7314.010
    
    [GRAPHIC] [TIFF OMITTED] T7314.011
    
    [GRAPHIC] [TIFF OMITTED] T7314.012
    
    [GRAPHIC] [TIFF OMITTED] T7314.013
    
    [GRAPHIC] [TIFF OMITTED] T7314.014
    
    [GRAPHIC] [TIFF OMITTED] T7314.015
    
    [GRAPHIC] [TIFF OMITTED] T7314.016
    
    [GRAPHIC] [TIFF OMITTED] T7314.017
    
    [GRAPHIC] [TIFF OMITTED] T7314.018
    
    [GRAPHIC] [TIFF OMITTED] T7314.019
    
    [GRAPHIC] [TIFF OMITTED] T7314.020
    
    [GRAPHIC] [TIFF OMITTED] T7314.021
    
    [GRAPHIC] [TIFF OMITTED] T7314.022
    
    [GRAPHIC] [TIFF OMITTED] T7314.023
    
    [GRAPHIC] [TIFF OMITTED] T7314.024
    
    [GRAPHIC] [TIFF OMITTED] T7314.025
    
    [GRAPHIC] [TIFF OMITTED] T7314.026
    
    [GRAPHIC] [TIFF OMITTED] T7314.027
    
    [GRAPHIC] [TIFF OMITTED] T7314.028
    
    [GRAPHIC] [TIFF OMITTED] T7314.029
    
    [GRAPHIC] [TIFF OMITTED] T7314.030
    
    [GRAPHIC] [TIFF OMITTED] T7314.031
    
    [GRAPHIC] [TIFF OMITTED] T7314.032
    
    [GRAPHIC] [TIFF OMITTED] T7314.033
    
    [GRAPHIC] [TIFF OMITTED] T7314.034
    
    [GRAPHIC] [TIFF OMITTED] T7314.035
    
    [GRAPHIC] [TIFF OMITTED] T7314.036
    
    [GRAPHIC] [TIFF OMITTED] T7314.037
    
    [GRAPHIC] [TIFF OMITTED] T7314.038
    
    [GRAPHIC] [TIFF OMITTED] T7314.039
    
    [GRAPHIC] [TIFF OMITTED] T7314.040
    
  

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
